<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-308]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-308
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                             NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


                            S. 225      S. 774
                            S. 298      S. 849
                            S. 327      S. 1152
                            S. 389      S. 1582
                            S. 641      S. 1705
 


                               __________

                             JUNE 19, 2019

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-817              WASHINGTON : 2020         
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
CINDY HYDE-SMITH                     MARTIN HEINRICH
LAMAR ALEXANDER                      MAZIE K. HIRONO
JOHN HOEVEN

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     4
Hoeven, Hon. John, a U.S. Senator from North Dakota..............     5

                               WITNESSES

Cramer, Hon. Kevin, a U.S. Senator from North Dakota.............     5
Smith, P. Daniel, Deputy Director, National Park Service, U.S. 
  Department of the Interior.....................................     7

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

1882 Project Foundation, et al.:
    Letter for the Record........................................    37
Agenda...........................................................     3
Board of Commissioners of Otero County (New Mexico):
    Letter for the Record........................................    38
Cramer, Hon. Kevin:
    Opening Statement............................................     5
Daines, Hon. Steve:
    Opening Statement............................................     1
Hoeven, Hon. John:
    Opening Statement............................................     5
King, Jr., Hon. Angus S.:
    Opening Statement............................................     4
League of Women Voters of Colorado:
    Letter for the Record........................................    47
League of Women Voters of Larimer County (Colorado):
    Letter for the Record........................................    48
National Organization for Women--North Colorado Chapter:
    Letter for the Record........................................    49
Shaheen, Hon. Jeanne:
    Statement for the Record.....................................    50
Smith, P. Daniel:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    35
Vet Voice Foundation:
    Letter for the Record........................................    52
Veterans of Foreign Wars of the United States:
    Resolution No. 303 for the Record............................    54
(The) Wilderness Society:
    Letter for the Record........................................    56
Women's Suffrage Centennial Commission:
    Letter for the Record........................................    58

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/6/subcommittee-on-national-parks-legislative-hearing


                          PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    Before we get started today, I especially want to thank the 
Ranking Member, Senator King, and take a moment to talk about 
the bipartisan work we accomplished together here last 
Congress.
    During the 115th Congress, the National Parks Subcommittee 
held five legislative hearings examining nearly 90 individual 
pieces of legislation in addition to our regular oversight and 
field hearings. I mention this because a number of priorities 
for individual Senators came through the National Parks 
Subcommittee; much of our work, ultimately, came to fruition in 
the passage of Senate bill 47, the John D. Dingell, Jr. 
Conservation, Management, and Recreation Act.
    In fact, three titles in the Act, the National Parks title, 
the National Heritage Area title and several items in the 
miscellaneous title are primarily comprised of legislation 
heard in this very Subcommittee.
    It is my hope that starting today we can continue to build 
upon this great record of bipartisan success and look to some 
new items for consideration.
    We have a number of interesting items on today's agenda, 
including Senate bill 849, legislation that would allow for the 
inclusion of individuals killed in active duty on the U.S.S. 
Frank E. Evans during the Vietnam War, to have their names 
added to the Vietnam Veterans Memorial Wall. Seventy-four men 
lost their lives on June 3rd, 1969, when the U.S.S. Frank E. 
Evans collided with the HMAS Melbourne off the coast of 
Vietnam, including Seaman Apprentice William Fields from Great 
Falls, Montana, who was inducted into the Navy just 17 days 
prior to his tragic death. I am a proud co-sponsor of this 
bill. I hope to see it move quickly and be signed into law so 
the stories of sailors like William can be told for generations 
to come.
    I would also like to mention Senate bill 1705, the Every 
Word We Utter Monument. This legislation would create a 
national monument to honor those who dedicated their life to 
the Women's Suffrage Movement. Montana has a proud tradition of 
supporting women's equality, including that of Jeanette Rankin, 
who was not only a leader in the suffragist movement, but also 
the very first woman ever elected to federal office in the 
United States and she was from Montana. Ms. Rankin was first 
elected to represent Montanans in Congress in 1916. We are 
proud of this tradition in Montana and look forward to 
celebrating the centennial of the ratification of the 19th 
amendment next August.
    The purpose of this hearing is to consider the 
Administration's views on pending legislation and allow 
Committee members an opportunity to ask questions. We will also 
include written statements and letters that have been sent to 
the Subcommittee in the official hearing record. The complete 
agenda will also be included in the official record, without 
objection.
    [The complete agenda referred to follows:]

                          UNITED STATES SENATE

                          COMMITTEE ON ENERGY 
                         AND NATURAL RESOURCES

                     Subcommittee on National Parks

                    Wednesday, June 19, 2019

                             AGENDA

  <bullet> S. 225, to provide for partnerships among State and 
        local governments, regional entities, and the private 
        sector to preserve, conserve, and enhance the visitor 
        experience at nationally significant battlefields of 
        the American Revolution, War of 1812, and Civil War, 
        and for other purposes (Isakson);
  <bullet> S. 298, to establish the Springfield Race Riot 
        National Historic Monument in the State of Illinois, 
        and for other purposes (Duckworth);
  <bullet> S. 327, to amend the Federal Lands Recreation 
        Enhancement Act to provide for a lifetime National 
        Recreation Pass for any veteran with a service-
        connected disability (Shaheen);
  <bullet> S. 389, to authorize the Society of the First 
        Infantry Division to make modifications to the First 
        Division Monument located on Federal land in 
        Presidential Park in the District of Columbia, and for 
        other purposes (Moran);
  <bullet> S. 641, to update the map of, and modify the maximum 
        acreage available for inclusion in, the Yucca House 
        National Monument (Gardner);
  <bullet> S. 774, to adjust the boundary of the Santa Monica 
        Mountains National Recreation Area to include the Rim 
        of the Valley Corridor, and for other purposes 
        (Feinstein);
  <bullet> S. 849, to provide for the inclusion on the Vietnam 
        Veterans Memorial Wall of the names of the lost crew 
        members of the U.S.S. Frank E. Evans killed on June 3, 
        1969 (Cramer);
  <bullet> S. 1152, to provide for the transfer of 
        administrative jurisdiction over certain parcels of 
        Federal land in Arlington, Virginia, and for other 
        purposes (Boozman);
  <bullet> S. 1582, to establish the White Sands National Park 
        in the State of New Mexico as a unit of the National 
        Park System, and for other purposes (Heinrich); and
  <bullet> S. 1705, to authorize the Every Word We Utter 
        Monument to establish a commemorative work in the 
        District of Columbia and its environs, and for other 
        purposes (Bennet).
    Senator Daines. We have one witness here today, Mr. P. 
Daniel Smith, Deputy Director, National Park Service, U.S. 
Department of the Interior. Great to have you here again, Mr. 
Smith.
    I am going to turn to the Ranking Member now for his 
opening remarks.
    Senator King.

             STATEMENT OF HON. ANGUS S. KING, JR.,
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman.
    It is great to be back discussing these important issues 
with this Subcommittee. As you point out, we did a lot of work 
last year and were met with a lot of success, and not every 
Subcommittee of this Congress can make that statement. I really 
appreciate it because we are working together. We are working 
on a bipartisan basis to protect the national parks, and that 
is about as good a cause as I think we can find. We have a lot 
of common ground, the Chair and I, and we believe that public 
land should be promoted, protected and funded.
    Since this is our first Subcommittee hearing of this year, 
I think it is appropriate to note, as I mentioned, the success 
that we had with over 40 national park-related bills in the 
broad public lands package that was signed into law earlier 
this year.
    Yesterday, just yesterday, the full Committee held a 
hearing to look at the maintenance backlog of the National Park 
Service and other federal land management agencies. I hope we 
will be able to build on that and move the Restore Our Parks 
Act through the Committee as soon as possible.
    This morning's hearing covers many bills that address 
various national park priorities for several of our colleagues. 
It includes Senator Heinrich's bill to designate White Sands 
National Monument as a National Park, and I have a wonderful 
picture, Senator, of my kids on a snow sled going down the 
White Sands. The only bad news was they got to the bottom, and 
we were pulling sand out of their hair and ears for about a 
week.
    Senator Heinrich. I want to see the picture of you sledding 
down that.
    [Laughter.]
    Senator King. That will have to wait.
    I understand that provision is already included in the 
National Defense Authorization Act. That is efficient work. We 
get things included even before we meet.
    I further understand that the sponsors of other bills have 
Department of Defense-related issues. We are hoping to get 
those bills included in the National Defense Authorization Act 
which we will be taking up next week.
    I understand the Administration has expressed some concern 
about some of the bills, and I look forward to hearing from the 
Administration on these bills.
    My main friend, Dan Smith, is here once again. We are 
delighted to have you with us, and we are going to work on 
these issues and try to get the bills in shape so that we can 
move them through the Subcommittee.
    Mr. Chairman, I look forward to this hearing, and thank you 
to our witnesses.
    Senator Daines. Thank you, Senator King.
    I have my two Senators here who are sitting to my right 
here. Senator King and Senator Heinrich, again, thank you for 
all the efforts you put forth to get that bipartisan lands 
package moved through the U.S. Senate. As we said, it took our 
public lands to bring divided government together and let's see 
if we can do that yet again here using this Committee as an 
example to help bring this city together and get some agreement 
on a few things. Thank you.
    We actually have both North Dakota Senators here today. It 
is remarkable.
    Before Senator Cramer opens with his short statement, 
Senator Hoeven, you have your special Senator here from North 
Dakota to introduce.
    Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I appreciate it, 
and I appreciate both you and Senator Heinrich as our 
colleagues from Midwestern states. It is good to be here with 
you.
    I just wanted to be here to thank Senator Cramer for 
introducing the U.S.S. Frank E. Evans Act which I am co-
sponsoring with him. He introduced it last Congress in the 
House and was able to pass it through the House through some 
very good work. I introduced it in the Senate. We did not get 
it through.
    But it is an important bill. It is one that he has worked 
hard on. It is one that I am committed to as well. I certainly 
want to make an appeal as well to the Committee to pass it in a 
timely way so we can get to the Floor and do everything we can 
to pass it. It is important. It does recognize 74 members of 
our incredible military who died during the Vietnam War and we 
believe deserve just recognition on the Vietnam War Wall 
Memorial. So again, I just want to be here to lend my support 
to my esteemed colleague and to this legislation.
    I thank you, both you and the Ranking Member from Maine, 
for giving me this time and for this Subcommittee's 
consideration of this important legislation.
    Thanks so much.
    Senator Daines. Thank you, Senator Hoeven.
    Senator Cramer.

                STATEMENT OF HON. KEVIN CRAMER, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Cramer. Thank you, Chairman Daines and Ranking 
Member King, members of the Committee, and special thanks to 
Senator Hoeven for his attention and support.
    As you know, I'm here today to speak in favor of the bill, 
Senate bill 849, the U.S.S. Frank E. Evans Act. It's a bill, as 
Senator Hoeven said, I did introduce in the House. In fact, 
when it came to my attention, I didn't even know it would be 
difficult. And as it turns out, it wasn't. We were able to 
unanimously pass it with support from the leadership of both 
parties into the National Defense Authorization Act as a Floor 
amendment.
    But the 74 sailors that lost their lives in the Frank E. 
Evans, it refers to sailors who by a technical glitch don't 
have their names placed on the Vietnam Memorial Wall. 
Interestingly, this tragedy happened 50 years and 16 days ago, 
and it just seems like this is the year that maybe we can 
remember them properly.
    It's a bipartisan bill supported by an equal number of 
Republicans and Democrats, including both the Chairman and the 
Ranking Member of this Subcommittee and, of course, Senator 
Hoeven. Last year, I introduced it, as I said, and it 
unanimously passed in the House and it was stripped in the 
Conference Committee. But since then I've moved from the House 
to the Senate, and I'm bringing this bill with me and my 
enthusiasm for it.
    Today's hearing is a significant step, Mr. Chairman. I 
appreciate this very much, and thank both you and Ranking 
Member King for your support of the legislation.
    The Evans was a destroyer. It served multiple combat 
support tours during the Vietnam War. After one of those tours, 
it was sent to participate in a training exercise in the South 
China Sea before its scheduled return to combat. I think it's 
important to note that. During the exercise, the Evans collided 
with an Australian aircraft carrier. This accident split the 
ship in two, resulting in the death of the 74. Only one of the 
74 bodies was recovered. The rest are buried at sea.
    As you know, Mr. Chairman, for a veteran's name to be added 
to the Vietnam Memorial Wall, certain criteria must be met and 
you'll hear about them today, I'm sure. But one of the 
qualifications is that those who perish must have been in or 
directly on their way to a combat zone. Because the Evans was 
not in or directly on its way to a combat zone, the names of 
those who died are not included on the Wall even though the 
ship had previously provided gunfire support off the coast of 
Vietnam, including during the Tet Offensive. The ship was also 
set to return to combat after the exercise just as the other 
U.S. ships did, exactly. They were scheduled to and did return.
    I first learned about this injustice during a weekly radio 
town hall that I host when the son-in-law of veteran Dick 
Grant, a U.S.S. Frank E. Evans survivor, and resident of Fargo 
in North Dakota, called the show. When I heard his story, I 
looked into the issue further and found that adding names to 
the Wall is not as unprecedented as some would have us believe. 
In fact, according to the Vietnam Memorial Fund, the Wall has 
been updated to add roughly 400 names. More to the point, a 
recent, just a couple weeks ago, Washington Post story cited 
the Vietnam Veterans Memorial Fund Study which detailed a 
series of duplications, misspellings and miscounts along the 
Vietnam Memorial. Clearly the Wall has seen changes before and 
it needs changes again.
    Throughout the years, many U.S.S. Frank E. Evans survivors 
like Dick Grant and family members and friends of the deceased 
have worked to include the lost 74 in changes and improvements 
to the Wall. These advocates have petitioned the Department of 
Defense to add the names, but their attempts have been denied. 
This bill would change that.
    Mr. Chairman, it's inexplicable to me how bureaucrats in 
Washington could determine these sailors' ultimate sacrifice is 
unworthy of being memorialized simply because they weren't on 
the right side of an arbitrary line.
    Tom Corcoran, Jr., is the brother to Patrick Corcoran, one 
of the lost 74, and he said it best. ``They wouldn't have been 
there if it wasn't for the war. Yet, our government won't 
chisel 74 names on that piece of granite. It's an absolute 
disgrace. It's just wrong.''
    These men left home and said goodbye to their families at 
the request of our nation, and now they're buried at sea. But 
instead of honoring them by including their names on the Wall, 
we sit here arguing about it 50 years and 16 days later.
    Let's be clear, the exclusion of these veterans is a 
disservice to those who gave their lives for our country. A 
technicality is not an excuse for inaction. A previously issued 
memo is not a reason to express disapproval and an objection 
from Washington's bureaucracy should not stop us.
    Throughout the process I've heard every excuse. It's too 
hard or we have to draw a line somewhere or there isn't space. 
We're working on sending a man to Mars, but somehow, we can't 
do this.
    They're wrong, Mr. Chairman. It's not too hard. Certainly 
not as hard as not seeing finality, not seeing your loved one 
memorialized appropriately. Certainly not as difficult as going 
to war for our country. If our government is capable of this, 
they're capable of adding their names.
    I'm thoroughly persuaded that they deserve it. I hope those 
who participate in today's hearing walk away with the same 
conviction. In fact, the only opponents I've ever heard from, 
ever heard from, are the people whose job it would be to do 
this. I've never had an objection from a single constituent or 
person in the media or throughout this country, except people 
who live in this town, whose job it would be to find a way to 
do this. And I think it's time that we, as elected leaders, 
stand up and do the right thing.
    With that, I thank you for the opportunity.
    Senator Daines. Thank you, Senator Cramer.
    Are there any other Senators who would like to make opening 
statements today?
    [No response.]
    All members' statements will be added to the hearing 
record.
    We will now proceed to the witness testimony. At the end of 
the testimony, we will begin questions.
    Mr. Smith, your full written testimony will be made part of 
the official hearing record.
    Mr. Smith, you may now proceed.

 STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Smith. Chairman Daines, Ranking Member King and members 
of the Subcommittee, thank you for the opportunity to present 
the Department of the Interior's views on the ten bills on 
today's agenda.
    I'd like to submit our full statements, and I'll summarize 
for the record.
    S. 225 would extend the authority for the American 
Battlefield Protection Program through Fiscal 2028 and increase 
the authorization to $20 million annually. It would allow up to 
ten percent of the funds to be used for battlefield 
interpretation and restoration which we support, but would 
recommend amending.
    S. 298 would establish the Springfield Race Riot National 
Historic Monument. The Department recognizes the historical 
significance of the site of the Springfield Race Riot of 2008; 
however, we do not support S. 298 at this time. The National 
Park Service is currently preparing a reconnaissance survey of 
the site, and when that is completed we would be happy to 
discuss some alternatives to increase public recognition at the 
site.
    S. 327 would provide for a lifetime national recreation 
pass for any veteran with a service-connected disability. 
Currently, disabled veterans are eligible for their free 
lifetime pass that is available for all disabled Americans. But 
this legislation would help ensure that there is no confusion 
about their eligibility. The Department supports the bill.
    S. 389 would authorize modifications to the First Division 
Monument located in President's Park. We do not object to this 
bill.
    S. 641 would revise the boundary of Yucca House National 
Monument and authorize the National Park Service to acquire by 
donation an adjacent 160-acre parcel of land. The Department 
supports this bill with technical amendments.
    S. 774 would expand the boundary of Santa Monica Mountains 
National Recreation Area to include an additional 191,000 acres 
in the mountainous areas that surround the valleys Northwest of 
Los Angeles. The National Park Service's 2008 Special Resource 
Study found that the addition of the expansion of this 
recreation area met the criteria for addition to the National 
Park System. The study anticipated limited federal ownership in 
the new area, as is the case within the existing unit. Even so, 
resources at this time are needed to reduce the National Park 
Service's $11.9 billion deferred maintenance backlog and 
address other critical National Park Service needs. The 
Department does not support enacting S. 774 at this time.
    S. 849 would provide for an inclusion on the Vietnam 
Veterans Memorial Wall the names of the crew members of the 
U.S.S. Frank E. Evans killed on June 3rd, 1969. While we 
appreciate the effort to recognize the servicemen and women who 
gave their lives during the Vietnam War, we would defer this 
bill to the Department of Defense who has determined that the 
names of those who perished on the U.S.S. Frank E. Evans do not 
meet the criteria for inclusion. The Defense Department has 
been responsible for determining all of the inclusion of names 
on the Vietnam Veterans Memorial Wall since its inception, and 
we support their decision.
    S. 1152 would transfer most of Memorial Avenue along with 
some adjacent land at Arlington National Cemetery from the 
Secretary of the Interior to the Secretary of the Army. It 
would also transfer a parcel within Arlington National Cemetery 
at Arlington House, the Robert E. Lee Memorial, from the 
Secretary of the Army to the Secretary of Interior. The 
Department supports S. 1152 with an amendment.
    S. 1582 would re-designate White Sands National Monument as 
White Sands National Park. This proposed designation fits 
within our standard naming conventions for parks; however, we 
question the re-designation without also adjusting its boundary 
and putting into effect an exchange of lands with White Sands 
Missile Range. We are also concerned about the bill's special 
requirements for nominating the site to the World Heritage List 
as they would establish a unique process for this one potential 
site. We'd like to work with the Committee to develop 
amendments to address these issues.
    And finally, S. 1705 would authorize the organization named 
the Every Word We Utter Monument to establish a commemorative 
work honoring the effort to pass the 19th Amendment. We ask the 
Committee to defer action on this bill until the organization 
receives approval from the IRS of its 501(c)(3) status.
    Mr. Chairman, that completes my remarks. I look forward to 
any questions the Committee may have.
    [The prepared statements of Mr. Smith follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Daines. Thanks for your testimony, Mr. Smith, and 
thanks for being here again today.
    In my opening statement I mentioned Senate bill 849, 
legislation that would allow those who perished in the tragic 
accident on the U.S.S. Frank E. Evans, including Williams 
Fields, to be honored on the Vietnam Veterans Memorial Wall. 
According to your written testimony, the National Park Service 
(NPS) would defer to the Department of Defense (DoD) on this 
matter, allowing DoD to ultimately decide if the names of these 
74 sailors belong on the Wall. Is that correct?
    Mr. Smith. That's correct, Mr. Chairman.
    Senator Daines. It is also my understanding the NPS worked 
with DoD on adding names and making corrections to existing 
names to the Wall in the past. Do I have that right?
    Mr. Smith. Yes, you do, Mr. Chairman.
    Senator Daines. And finally, should this legislation be 
enacted into law, what, if any, physical changes to the Vietnam 
Veterans Memorial Wall does NPS expect would be required other 
than additional engravings?
    Mr. Smith. Senator, as you know in my prior testimony, I've 
dealt with the Vietnam Veterans Memorial since we put the spade 
in the ground to build it and was there the day President 
Reagan dedicated it, and I am a Vietnam Veteran. I arrived in 
country about a week after this accident on the Evans in 1969.
    The Wall is in chronological order of how our 58,000 
Vietnam Veterans are listed on it. There will be complications 
to chronologically put the crew of the Evans into it, in block 
in the timeframe that they perished in '69, will be a major 
change because it will have to change that chronological order.
    I don't know all the details and, of course, we coordinate 
those with the Vietnam Veterans Memorial Fund, but this would 
require changing the various slates of granite that are there. 
And so, to add this many names has not been done before.
    The way the monument was done, we've been able to add once 
MIAs are identified or whatever, there's been space for those. 
This inclusion will be a situation that technically will be 
hard to accomplish the way the Wall currently is constructed.
    Senator Daines. Thanks for your service to our country and 
your heritage too, as a Vietnam Veteran. We appreciate it, Mr. 
Smith.
    Ranking Member King.
    Senator King. Yesterday we had some testimony about the 
Wounded Veterans Recreation Act and the concept of wounded 
veterans getting free passes to the park which everyone 
supports, including myself.
    The question that arose is if there are wounded veterans in 
the car and there are six other people, do they all get free 
entrance to the park as well, at a time when we are struggling 
to try to cover the operational and maintenance costs of the 
park? Do you know what the rule is on that?
    Mr. Smith. Senator King, I have to tell you I should know 
that answer and I haven't been a superintendent who had those 
visitors. I'm not sure it's for the whole car. I think it's for 
the veteran and maybe one person who is with him. I'll have to 
provide that for the record, and I apologize that I don't have 
that answer.
    Senator King. I would appreciate that. I think it is a 
relevant question.
    To be a little more specific, regarding the U.S.S. Frank E. 
Evans: The ship isn't qualified because it was not in the zone 
at the time of the sinking? Is that the issue? It was not in 
the right zone. It was on a training cruise. But hadn't it 
already been in combat?
    Mr. Smith. Senator, I believe you're correct. And I would 
not want to speak for the Department of Defense, but there are 
many issues on--there are many other incidents of people 
transporting to or from Vietnam that involve hundreds of names 
that, somehow, through that unbelievably difficult task that 
Defense has in their awards and casualties branch to make these 
decisions. Nobody wants to dishonor anybody's service in that 
war or any other war.
    But there were criteria set up from the beginning of this 
and this one is caught, as the Senator said, Senator Cramer 
said, it is caught in a very strange, unique situation of being 
out of the combat zone at that time. And so, it's a criteria 
that Defense has set. I would not speak to the details of it, 
that would be their responsibility.
    But I do know that ever since the memorial was dedicated in 
1982, DoD has coordinated with the Vietnam Veterans Memorial 
Fund on every name that's been added to that Wall and this is 
following that same procedure.
    So it's a tough decision, but it's one that DoD----
    Senator King. We really should hear from, on this issue, 
perhaps the Memorial Fund and Department of Defense?
    Mr. Smith. I think so, and especially from the Memorial 
Fund as they seem to be very concerned about what this would 
mean for changing the Wall as far as having to add an 
additional 74 names and then move all those plates down the 
Wall.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Senator Daines. Senator Heinrich.
    Senator Heinrich. Deputy Director, most people all over the 
world are familiar with the White Sands themselves, the Gypsum 
Dunes, but can you talk a little bit about some of the other 
values at this National Park Service unit including, maybe, the 
paleontological resources that have made quite a bit of news in 
the last year?
    Mr. Smith. Senator, yes, it's actually a very unique site.
    The size of it, first of all, 143,000 acres, covers 275 
square miles. Because of this unbelievable mineral deposit 
there, a 10,000-year history is very evident there, not only of 
flora and fauna but of even human activity. And they're very 
interestingly preserved in the way that mineral exists there.
    It's also interesting because of how various creatures have 
adapted to that environment. So it's a very unique area. And 
sometimes we hesitate when Congress wants to change a monument 
to a national park, but this one does meet all of our criteria 
in scientific, cultural and natural resources and size that 
does qualify it for National Park status. And of your 15 units 
in New Mexico, you only have one other one. So this actually is 
a very sensible approach to the unit.
    Senator Heinrich. In the time since Senator King was able 
to visit this unit, they have discovered human footprints 
placed inside the footprints of a giant ground sloth that they 
were stalking at the time from thousands of years ago. So it 
really is a pretty unique area, and we are actively working to 
make sure that the land swap that the Deputy Director 
referenced is included in the Defense Authorization bill.
    So thank you.
    Mr. Smith. Senator King, I have an answer for your 
question.
    The Veteran's pass would allow up to four adults with an 
Access Pass or a whole car.
    Senator King. So it would allow a whole car.
    Mr. Smith. It does allow.
    Senator King. Thank you, I appreciate that.
    Mr. Smith. And that's why I have as good a staff as you all 
have.
    [Laughter.]
    Senator Daines. Thank you.
    I just want to note, last week we had Vice President Pence 
in Yellowstone National Park. He was in Montana on Wednesday 
and then they went down to Yellowstone National Park on 
Thursday. He made a strong statement about the importance of 
getting our deferred maintenance bill moved through Congress 
and the full support of the Administration which is great news.
    It was wonderful to see the Vice President and Mrs. Pence 
there at Old Faithful and touring the park on Thursday, 
enjoying our wonderful national parks. And anyway, it is just 
always a good sign when you have the White House out in one of 
your national parks. So I know they had a great time.
    Senator Heinrich. Chairman? I hope they saw the Montana 
portion of the park.
    Senator Daines. They did and I do have to recognize, in 
fact, Wyoming does have the majority in their state, but we 
have a lot of the gateway communities. So that is how we 
balance it out. But you are exactly right.
    Mr. Smith. Mr. Chairman, if I could?
    I need to mention that also the Secretary of the Interior 
here has been with all three of you in your states, in your 
parks in the very recent past. So he's been traveling on these 
same issues also.
    Senator Daines. Yes, it would be noted that Secretary 
Bernhardt and the Vice President were in Yellowstone National 
Park together, and Cam Sholly, our new superintendent there, 
did a great job as host, and Old Faithful went off right on 
schedule. That is why it is called ``Old Faithful.''
    Senator King. I also want to acknowledge Secretary 
Bernhardt came to Maine and visited some of our areas. We hope 
to get him back for Katahdin Woods and Waters, and Acadia, but 
we appreciate his willingness to come to Maine and listen to 
some of the issues that we have.
    I also thought you might enjoy, being from Maine, during 
yesterday's hearings we had a list of all of the top ten 
visited parks in the country. Acadia was about seventh, but 
then it had the acreage of each park. And I did a little 
calculation. Acadia had the most visitors per acre by a factor 
of many times. Seventy-four people per acre as opposed to 
Yellowstone which was like two people per acre. I think the 
next one was Great Smokies which was around 20. But the point I 
was making was Acadia is a very heavily visited national park, 
particularly given its size. And I know you know it very well.
    Mr. Smith. I think we need to visit again very soon, 
Senator.
    Senator King. Anytime, you never have to ask me twice to go 
to Acadia.
    Thank you.
    Senator Daines. I think it also highlights the part, the 
important point and the need to continue to invest in our 
national parks and deal with this maintenance backlog. We love 
our national parks and the visitation numbers continue to set 
records virtually every year, and why we need to move this 
legislation through during this Congress.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record. The hearing 
record will be open for two weeks.
    I want to thank Mr. Smith for his time and for his 
testimony today.
    This hearing is adjourned.
    [Whereupon, at 10:30 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
